<html>
<title> - REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST FOLLOWING HURRICANE KATRINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




    REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST 
                      FOLLOWING HURRICANE KATRINA

=======================================================================

                                (109-37)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-917 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California, Vice-    SHELLEY BERKLEY, Nevada
Chair                                JIM MATHESON, Utah
ROBIN HAYES, North Carolina          MICHAEL M. HONDA, California
ROB SIMMONS, Connecticut             RICK LARSEN, Washington
HENRY E. BROWN, Jr., South Carolina  MICHAEL E. CAPUANO, Massachusetts
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 TIMOTHY H. BISHOP, New York
MARK R. KENNEDY, Minnesota           MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           LINCOLN DAVIS, Tennessee
JOHN BOOZMAN, Arkansas               BEN CHANDLER, Kentucky
MARIO DIAZ-BALART, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                ALLYSON Y. SCHWARTZ, Pennsylvania
KENNY MARCHANT, Texas                JAMES L. OBERSTAR, Minnesota
MICHAEL E. SODREL, Indiana             (Ex Officio)
DAVID G. REICHERT, Washington
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Capka, Hon. J. Richard, Acting Administrator, Federal Highway 
  Administration, U.S. Department of Transportation..............     4
 Schruth, Susan E., Associate Administrator, Federal Transit 
  Administration, U.S. Department of Transportation..............     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Capka, Hon. J. Richard..........................................    23
 Dorn, Jennifer L. (submitted by) Susan E. Schruth...............    30

 
    REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST 
                      FOLLOWING HURRICANE KATRINA

                              ----------                              


                       Thursday, October 20, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit, and Pipelines, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Hon. Thomas E. 
Petri [chairman of the subcommittee] presiding.
    Mr. Petri. The Subcommittee will come to order. My 
colleague, Mr. DeFazio, is on his way and will be joining us 
shortly. I would like to welcome our members and witnesses to 
today's hearings on Rebuilding Highway and Transit 
Infrastructure Following Hurricane Katrina.
    The purpose of the hearing is to have the Federal Highway 
Administration and Federal Transit Administration update 
members of the Subcommittee about the repair and replacement of 
the highway and transit systems and the restoration of vital 
transportation services following the Category 4 hurricane that 
devastated the Gulf Coast Region on August 29th. A number of us 
visited the affected areas September 18th, some 16 members of 
the House.
    On a helicopter tour as part of that visit, I saw the 
tremendous damage to the area's infrastructure including 
levees, oil rigs, bridges, and roads that was left in the 
storm's wake. I also visited the FEMA Emergency Operations 
Center which is about 50 yards behind the Convention Center. It 
is impossible to convey the devastation that we saw, damage 
that is still being assessed and costs still being calculated.
    On October 6th, Federal Highway Administration and Federal 
Transit Administration briefed members of the Transportation 
and Infrastructure Committee on the status of transportation 
systems and services in the impacted region. Because many roads 
were submerged for long periods of time, direct and individual 
evaluation is required for each highway.
    At the time of the briefing, some significant roadways in 
Mississippi Louisiana, and Alabama were still closed. There is 
substantial effort underway to restore temporary traffic to the 
I-10 Twin Span Bridge between Slidell and New Orleans and to 
complete a temporary U.S. 90 along the Mississippi Gulf Coast 
between Pass Christian and Biloxi.
    Enormous progress towards reopening major highways has been 
made. Innovative contracting techniques have resulted in the 
reopening of the I-10 Bridge at Pascagoula on October 1st, nine 
days ahead of schedule. Transit equipment and facilities in New 
Orleans were particularly hard hit by the hurricane. A majority 
of New Orleans regional transit agencies' bus fleets suffered 
water damage, were stolen or vandalized, or were commandeered 
by other government agencies.
    In addition, the newly opened Canal Street system was 
severely disabled with all of the new trolley cars, and the 
track, and necessary systems suffering severe water damage. In 
addition to restoring and replacing transit infrastructure and 
equipment, a major challenge is restoring transit service, 
particularly in areas where large numbers of evacuees have 
settled, such as Baton Rouge.
    To ensure that these projects receive the required 
individual attention, FEMA has given a total of $48.4 million 
in emergency transportation funds to the Department of 
Transportation. These funds are managed by the Federal Transit 
Administration and are being made available to the New Orleans, 
Baton Rouge, and Mississippi Coast Transit Agencies to provide 
public transportation services to workers, commuters, and 
families in the region.
    The Committee expects that assessing the full impact of the 
hurricane will require several more weeks and, again, this 
hearing is intended to give members an understanding of the 
current state of affairs. Next Thursday, the Subcommittee will 
follow up on today's hearing when we will hear from State and 
Local transportation officials from Louisiana, Mississippi, and 
Alabama.
    I would like to thank our witnesses, and I look forward to 
your testimony. I would yield to Mr. DeFazio for any opening 
statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for calling 
this important hearing. I think you have outlined the subject 
matter very ably. We need to know the extent of the damage and 
the costs of repair. Hopefully, we can find ways, either within 
the normal processes of funding transportation infrastructure, 
or through perhaps special allocations that will be part of the 
disaster package to provide funds adequate to deal with these 
problems.
    In public, there has been some discussion of how we should 
reopen the Highway Bill to pay for the Katrina disaster, and 
there are two problems with that idea. One is that people are 
thinking of spending funds far outside the area authorized by 
law for gas tax dollars not directly transportation related, 
and I would vigorously resist that.
    Secondly, since the bill we passed, although much better 
than where we were a year ago, in the end is a good bill, but 
it wasn't a great bill for America. We are still going to lose 
ground over the next four years in terms of meeting the needs 
for congestion mitigation, management, growth, and the existing 
infrastructure maintenance, let alone deal with other problems 
that might crop up. The funds there already were inadequate.
    So my hope here is we will make a strong case that this was 
an extraordinary event and that the transportation related 
repairs should come out of the other disaster funds which 
Congress is going to appropriate in the coming months.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Any opening statements, Mr. Blumenauer?
    Mr. Blumenauer. Mr. Chairman, I appreciate your focusing in 
on this. I find that in various subcommittees today I have been 
spending most of my time on this subject, and I think it is 
appropriate that we do so. In addition to finding out what the 
situation is now, learning from our witnesses about the extent 
of the activities, their progress to date and there certainly 
have been already some success stories that I think have 
potential lessons for us to learn about the longer term 
prospects for contracting in this area, I am hopeful that you, 
Mr. Chairman, our Ranking Member, can work with the other two 
Subcommittees that have been aggressively moving in this area 
on the Transportation and Infrastructure Committee to advance 
some suggestions about making the contracting process more 
results-driven, increasing confidence in its transparency and 
effectiveness of the hundreds of millions of dollars of 
contracts that are going to be let. We are burning through $14 
million dollars an hour that we are spending now.
    There may be some lessons to be learned about some 
experience that we have had in the transportation arena already 
that has been very results-driven and that has raised the 
confidence level. But I hope that we can think about longer 
term principles if we are going to be dealing with massive 
reconstruction and major investment: some principles that we 
might be able to promulgate with this Committee with the help 
of our witnesses here today about how that money is spent and 
where it is spent.
    I am hopeful that at some point we may get a little 
feedback about my, I confess, parochial interest; it is very 
narrow. You alluded to the problems with part of the streetcar 
system. The St. Charles Line is the oldest continuously 
operating streetcar in America. I think it dates back to 1835 
when it was drawn by mules. There is tremendous opportunity 
based on some of the work that this Subcommittee did with the 
Small Starts Provision and looking at a very cost effective 
approach to streetcars, something may be done in New Orleans to 
build on the reconstruction of this historic system that could 
dramatically accelerate, in a very cost effective manner, the 
reconstruction of historic New Orleans in a very safe and 
conscientious fashion.
    So at some point, Mr. Chairman, I will probably be lobbying 
you and our colleagues to maybe look at some applications there 
that, for a relatively small sum of money, might have a very 
dramatic impact on that community and serve as a model for our 
Small Starts Legislation that might help with the other 82 
communities around the country that want streetcars.
    Thank you for your indulgence.
    Mr. Petri. Thank you. Now, we will turn to our panel which 
consists of Richard Capka, Acting Administrator, Federal 
Highway Administration and Susan Schruth, the Associate 
Administrator, Federal Transit Administration. Sir, would you 
care to begin?

      TESTIMONY OF THE HONORABLE J. RICHARD CAPKA, ACTING 
 ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION, UNITED STATES 
   DEPARTMENT OF TRANSPORTATION; SUSAN E. SCHRUTH, ASSOCIATE 
 ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION, UNITED STATES 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Capka. Thank you, Mr. Chairman, Mr. DeFazio, members. I 
appreciate the opportunity to discuss Federal Highway's 
response to Hurricane Katrina, and I would like to ask that my 
full statement be made part of the record for this hearing.
    Mr. Petri. Without objection, it will be.
    Mr. Capka. Thank you, sir. First, I would like to offer my 
sympathy to all of those affected by the recent hurricanes and 
assure you that Federal Highways is committed to expediting 
recovery in the devastated areas. We work closely with the 
State and Local officials before, during, and we continue to do 
so.
    In discussing our response, it is important to note that 
through our day to day mission activities, our permanent 
Federal Highway Division office staff has developed firsthand 
knowledge of their respective States and strong professional 
and personal relationships with the State and Local highway 
officials. This provides an excellent foundation for an 
effective, coordinated, and rapid response.
    As soon as we could reenter the affected areas, Federal 
Highway sent in personnel, including staff from outside the 
affected areas to work alongside State and Local officials to 
help assess the damage and to facilitate response and recovery 
efforts. I visited the areas with Louisiana Secretary of 
Transportation, Johnny Bradberry; Mississippi Department of 
Transportation's Executive Director, Butch Brown; and 
Mississippi Highway Commission Chairman, Wayne Brown.
    While TV coverage, and aerial surveys, and photos of bridge 
and roadway damage along I-10, U.S. 90, and other areas 
certainly tell the story of Katrina's force, they couldn't 
convey the full impact of the devastation that I witnessed. I 
must express my admiration for the State and Local highway 
department and road crews. Despite the fact that many of them 
suffered great personal loss along with their community 
neighbors, these dedicated crews began clearing debris 
including downed trees and power lines from highways and 
bridges as soon as it was safe to do so.
    Consequently, in less than a day, the States had removed 
debris from their Federal aid highways to enable ready access 
for the first responders.
    Federal Highway employees worked shoulder to shoulder with 
State highway officials to rapidly assess the damage and to 
shape strategies that would provide the most efficient and 
effective response. We facilitated getting Mississippi and 
Louisiana officials together with the Florida experts who had 
experience with Hurricane Ivan last year to shape strategies 
required to address the bridge damage suffered along Interstate 
10 and U.S. Highway 90.
    We also worked with the States to expedite procedures to 
get contracts underway with repairs. Incentives had been used 
effectively to ensure quick restoration of lost essential 
service. For example, Mississippi awarded a $5.2 million 
contract to repair one of the highest priority roads in the 
region, the I-10 bridge at Pascagoula, and included not only 
incentive if work is to be completed in less than the 31 days 
but also a corresponding penalty for finishing late. I am 
pleased to report that this bridge reopened on October 1st, 
almost 10 days ahead of schedule.
    Louisiana has used a similar technique to restore initial 
service across the I-10 bridge at Slidell. The first phase of 
the I-10 repair, to reopen one of the two heavily damaged spans 
to two-way traffic, was completed this past week on October 
14th, 16 days ahead of schedule. We strongly support these 
incentivized contracts, and we will continue to coordinate and 
synchronize our efforts with our other Federal agencies, and 
will continue to work closely with State and Local Governments 
to help restore the Gulf Coast as quickly as possible.
    Finally, I would like to note that Federal Highway 
administers the Emergency Relief Program which provides 
reimbursement to States for expenses related to highway 
infrastructure damage associated with natural disasters and 
other emergency situations. To date, Federal Highways has 
provided $10 million dollars in quick release emergency relief 
funds to Louisiana and Mississippi.
    While quick response is important, we are also mindful that 
financial accountability is also important. Federal Highways 
has taken specific steps to effectively manage expenditures 
relating to Hurricane Katrina recovery efforts. We will ensure 
that these funds are spent wisely and that emergency relief 
projects comply with the Federal requirements.
    Mr. Chairman, members, thank you for opportunity to 
testify, and I will be pleased to answer the questions that you 
may have.
    Mr. Petri. Thank you very much. Ms. Schruth?
    Ms. Schruth. Thank you, Mr. Chairman and Mr. DeFazio, 
members of the Subcommittee. Thank you for the opportunity to 
testify today on behalf of the Federal Transit Administration 
regarding FTA's activities and progress in the Gulf Region 
affected by Hurricane Katrina.
    The weekend of August 27th, our Nation watched with growing 
concern as Hurricane Katrina strengthened across the Gulf. In 
her aftermath, FTA's response has been focused, aggressive, and 
ambitious. Public transportation is a lifeline for countless 
Americans. From the start of the response effort, FTA has been 
providing onsite and hands-on technical assistance to transit 
agencies.
    As we move forward, we are dealing with two separate but 
related crises. First, we need to restore service in 
communities devastated by Hurricane Katrina, and clearly the 
most significant damage was realized by New Orleans and the 
Gulf Coast in Mississippi. But second, we need to expand 
service in communities such as Baton Rouge and smaller rural 
areas that have seen their populations increase overnight, in 
the case of Baton Rouge doubling overnight, because of the 
influx of evacuees.
    In the first days after landfall, FTA coordinated with 
transit agencies unaffected by the disaster and with our 
industry partners to provide buses, equipment, and personnel 
for the immediate response. Within the first week, FTA 
delivered vital information into the hands of our grantees, 
including how to contact local FEMA officials by state and 
information about how to access information concerning 
financial assistance.
    FTA detailed over 20 staff and 7 contractor teams to 
disaster areas across the affected region to help local transit 
authorities reestablish transit service and to support the 
recovery effort. Within two weeks, FTA announced it would allow 
transit agencies affected by the hurricane to make use of 
Federal funds to buy supplies, repair equipment, or begin 
reconstruction without immediately having to provide local 
matching funds.
    The Mississippi Department of Transportation became the 
first agency to benefit from this action, with a $6.1 million 
formula grant. These funds will be used to benefit 22 transit 
bus operators to buy new vehicles, pay salaries, or provide 
other necessities that will help restore service.
    We have worked to secure a $47 million mission assignment 
with FEMA for emergency relief funds for transit services in 
New Orleans and Baton Rouge for a period of six months. We 
worked to secure two 60-day mission assignments from FEMA for 
emergency transit in six Mississippi Gulf counties, first for 
$1.4 million for Coast Transit and the three counties it 
serves, and second for a $492,000 mission assignment which will 
be administered by the State of Mississippi for three rural 
counties north of the coast. These emergency funds will give 
residents the mobility and freedom to go grocery shopping, 
apply for social services, or such basic things as keeping 
appointments with doctors.
    These are small steps but necessary steps in the 
reestablishment of normal daily routines. I want to underscore 
the importance of these funds for rural communities throughout 
the entire region affected by the disaster. Small transit 
agencies, nonprofit providers, and many rural areas in the Gulf 
Region have seen demand increase dramatically as thousands of 
evacuees have joined their communities, but they often do not 
have the excess operating capacity to meet that demand.
    We are pleased that over 60 larger transit systems are 
providing free transit passes to evacuees who have been 
relocated to their cities. This is not the case in the rural 
areas where sometimes there is no public transportation or very 
small transit systems.
    Our priorities for the coming months include: to carry out 
the FEMA mission assignments which we have received; to work 
with the Gulf States and FEMA to fund additional mission 
assignments so that we may provide transit service in areas 
that have these relocations of evacuees; we are working to help 
transit agencies secure FEMA public assistance funds which will 
pay for reconstruction and replacement of damaged vehicles, 
facilities, and systems; and we will continue our onsite 
technical assistance with contractor support to the entire Gulf 
Region.
    Finally, we will actively support the local planning 
process as communities invite us to do so to ensure that 
transportation options are integral considerations in the 
future planning for the cities in the region.
    As with any natural disaster, Hurricane Katrina challenged 
us as public servants to deploy the substantial resources of 
the Federal Government in a way that works for local 
communities as they strive to rebuild. Mr. Chairman, in the 
seven weeks since Katrina made landfall, FTA has met this 
challenge, and we will continue to do so in the coming months.
    Thank you very much for this opportunity, and I am happy to 
answer any questions.
    Mr. Petri. Thank you.
    Mr DeFazio, any questions? Would you care to start?
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Capka, I would 
just like to get into the emergency funds: what is available; 
what has been spent; and the sourcing of the funds, whether we 
are talking about the emergency funds under the trust fund 
section or whether we are looking at FEMA general funds for 
some of these emergency funds; some of the funds you talked 
about that have been used for the bridge repair and that. Is 
there a split, or where are they coming from?
    Mr. Capka. Well, sir, the funds that are being used on the 
Federal Aid Highway System are Federal aid dollars that come 
through the trust fund. Specifically responding to the damages 
associated with the hurricanes, those funds would be out of our 
Emergency Relief Program, our emergency relief funds. We don't 
manage or we don't pass through FEMA dollars in our Emergency 
Relief Program.
    We work carefully with FEMA to ensure that we have defined 
the damage that is eligible under emergency relief and then 
damages that would have to be picked up by FEMA. So if it is on 
a Federal Aid Highway road system, then it would be emergency 
relief. If it is off-system, then it would be up to FEMA to 
provide the funding.
    Mr. DeFazio. What about debris removal from the Federal 
System, is that FEMA's responsibility or your responsibility?
    Mr. Capka. Debris removal from the Federal Highway System 
would be the emergency relief. It would be Federal Highway 
funds to do that.
    Mr. DeFazio. Okay. My understanding is, as I recall during 
the deliberations over SAFETEA-LU, there was some discussion of 
oversubscription of these emergency funds in past years.
    Mr. Capka. Yes, sir. As you are aware, we have on the first 
of October of every year, we are given another $100 million to 
add to the Emergency Relief Program. Our backlog to date of all 
the unpaid claims against emergency relief is about $610 
million. So there is a backlog.
    Mr. DeFazio. Let me see if I understand this. So if there 
is a backlog of $610 million, but we are currently expending 
funds, so are we putting the Katrina work first in line and 
they are getting direct reimbursement, or are they just getting 
credited for potential future reimbursement when there are 
funds, and it is being spent out of the State allocation?
    Mr. Capka. Sir, the latter is more accurate than the 
former. However, in every year we set aside a small amount of 
money, relatively speaking, of the $100 million to be available 
for immediate release in the event of a major catastrophe.
    This year, we provided $5 million to Louisiana and $5 
million to Mississippi, certainly a small down payment on a 
very large amount of repair work that needs to be done. The 
balance of the program is generally allocated to the States 
that have the backlog claims against the account in a prorated 
share.
    So in answer to your question, Mississippi and Louisiana 
have had to use other funds to accomplish some of this work 
with the promise of being reimbursed at some time in the 
future.
    Mr. DeFazio. Okay. What about when there is, say, an 
upgrade involved? Sometimes if you had a bridge that was pretty 
well decimated that was substandard or obsolete, obsolescent, 
it would not necessarily make sense to rebuild it in the same 
configuration. How would that be apportioned as an obligation 
against future emergency funds versus the State's regular 
allocation?
    Mr. Capka. Yes, sir, there may be cost sharing involved 
with respect to betterments. But in answering to your question 
about some of the bridges, the first decision we have to reach 
with respect to emergency relief eligibility is whether the 
bridge, as an example, would be repaired in kind to pre-Katrina 
condition or replaced in kind to pre-Katrina conditions.
    And we have to do an analysis of the difference between 
repair versus replace, much like an insurance adjuster would do 
in totaling a car as an example. And if the repair cost 
approaches that of replacement, then we would allow the State 
to replace the bridge using ER money.
    Now, once that decision--
    Mr. DeFazio. But if it was an upgrade on the replacement, 
that would be different?
    Mr. Capka. Absolutely, yes, sir. Now, if it is eligible for 
replacement, the bridge would then be replaced to a standard 
that reflects the current view, the current forecast of traffic 
requirements, loading requirements, the best of the design 
criteria that we are aware of today. So we would allow the full 
upgrade of the bridge, using the emergency relief funding.
    Mr. DeFazio. Really?
    Mr. Capka. If it is beyond current traffic projections.
    Mr. DeFazio. Right.
    Mr. Capka. If a traffic projection called for a four lane 
bridge, but they wanted to, the State wanted to go to six 
lanes, if that six lanes was not justified by traffic forecast, 
it would a betterment to be borne by the State and other funds.
    Mr. DeFazio. Okay. I assume that the Davis Bacon Waiver 
promulgated by the President applies also to these projects?
    Mr. Capka. It does, sir.
    Mr. DeFazio. I asked this question of the FEMA IG. I asked 
if the FEMA IG could quantify cost savings, since here we have 
contracts that are being let on an extraordinary basis with 
large incentives for prompt completion. I don't know how those 
estimates are set to say that it would really take 30 days to 
reopen fully two-way traffic on one bridge with unlimited lanes 
versus 20 days, who makes those estimates and determines how 
big those rewards are for early completion?
    And I hope that is all done very carefully, so this doesn't 
provide a windfall when it could have readily been done in 20 
days no matter what. Secondly, the IG from FEMA could not 
quantify and will be looking at the no-bid contracts that are 
being let to see whether or not we just end up with excess 
profit-taking as opposed to any savings to the taxpayers from 
the suspension of Davis Bacon to have people work at less than 
living wages.
    Mr. Capka. Sir, in answer to and in response to your first 
comment about the --
    Mr. DeFazio. Timelines.
    Mr. Capka.--the contracts with incentives and whether or 
not the estimates of time to complete reflect accurately the 
incentives that are provided, I would like to comment by saying 
that these contracts where we have had incentives were competed 
contracts. And so the various contractors who bid on this work 
understood the risks and the benefits going in, and our 
assumption is that is reflected in the bid.
    Mr. DeFazio. You can bid certainly on costs, but I am 
wondering if they just said: There it is. We want it open as 
soon as possible. Give us a bid and a number of days it will 
take you to do that bid. As opposed to: We think it is going to 
take 30 days. You give us a bid for doing it in 30 days, but if 
you can do it--do you know what I am saying?
    It seems like you might want to include both variables in a 
bid and say: Okay, we want it done as cost effectively as 
possible, as quickly as possible. Now, go out and give us a 
bid.
    Mr. Capka. What we did, as an example, on the Slidell Twin 
Span Bridge in Louisiana, the requirement was to restore two 
lanes of traffic, one span in 45 days. That was the requirement 
from the Louisiana Department of Transportation. The contract 
also specified if you can do it sooner, we will give you 
$75,000 a day to do it sooner. There is also a penalty if you 
take longer, and a maximum of 15 days worth of incentive.
    So if they finished in 16 days, which they did, they only 
got 15 days worth of incentive. So there were some boundaries 
put on the incentive. That was known to all four. I believe 
there were four bidders on that contract. That was known to all 
four.
    So when they submitted their bids, they understood how 
quickly they could do it, what kind of equipment, what kind of 
hours they would need to work, and that was all kind of cranked 
into the number. The lowest bid, the winning bid by Boh 
Brothers in Louisiana was $31 million. Of course, they received 
better than $1 million in incentives. So in effect, it was a 
$32 million contract to Louisiana. The second low bid was $40 
million, and you can go up higher for the third one.
    Mr. DeFazio. Sure. But I guess the variable here and the 
thing concerning me is: Do you review? Do you have engineers 
from USDOT that review the LDOT's estimate that this Federal 
eligible structure needs the 45-day window they set, whether 
that was reasonable? Do you know what I am saying? There are 
some people that do not have a tremendous amount of confidence 
in some of the Local Government down there or State Government.
    Mr. Capka. Well, sir, what we did specifically on that 
particular bridge is we brought in experts from Florida who had 
had similar experience on their bridge in Escambia Bay and 
Pensacola. So we brought the experts in who had firsthand 
experience, and we sat them down with the officials there in 
Louisiana. Collectively, we looked at--
    Mr. DeFazio. Okay, so, you are. So you are.
    Mr. Capka. Yes.
    Mr. DeFazio. Okay, all right. That is good. So the second 
thing is in terms of being able to apportion, calculate, or 
otherwise estimate what the effect of suspending Davis Bacon 
was on these contracts?
    Mr. Capka. Sir, that is very difficult for me to assess at 
this point.
    Mr. DeFazio. Well, is there going to be a built in review 
process? If we are going to do this, we ought to know whether 
or not it just ends up in the contractor's pocket or it 
actually saves the taxpayers money. And if it ends up in the 
contractor's pocket, even the President wouldn't have a 
rationale for suspending--well, he would because they may be 
contributors, but otherwise he wouldn't have a rationale for 
suspending Davis Bacon.
    Mr. Capka. Sir, I think the assurances that we have tried 
to apply to the way we let contracts is to go competitive bid. 
Aside from the very early emergency work that had to get done 
immediately, debris removal and some of that very, very early 
work, we have had the Emergency Relief Program managed on a 
competitive bid basis.
    And so the competition among the various bidders will keep 
those, the bids, low and I think that is the implied philosophy 
that we are taking towards this. It will all be normalized 
because they are bidding against one another, using the same 
labor rates that are permissible. And so they are all on the 
same footing, and the low bid will reflect the best possible 
price for the State and for the Federal Government.
    Mr. DeFazio. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Sodrel?
    Mr. Sodrel. Thank you, Mr. Chairman.
    Ms. Schruth, could you tell us which of the transit 
agencies were the most affected by Katrina, and do you have 
cost estimates on what it will take to make them whole, transit 
agency by transit agency?
    Ms. Schruth. I can give you some of that information. New 
Orleans Transit had the most damage and partly because they 
were the largest system affected by the hurricane. They had 360 
buses and approximately 60 light rail vehicles. They had over 
40 paratransit vehicles and then other support vehicles that 
were all under water for a significant amount of time. They had 
four facilities, bus facilities and a car barn, as well as an 
administration facility that were all damaged.
    We had our contractors, our project management oversight 
contractors, engineering firms, go with NORTA to inspect their 
facilities. NORTA could not actually get access to their 
facilities until about September 20th. We were there with them 
when they did their initial inspection. We don't have final 
estimates of what it will cost. Some things will be 
salvageable; some things will have to be completely replaced.
    We have just decided that we also need to send a vehicle 
firm down because of the undercarriage damage to buses. We are 
not sure what impact that has on the whole vehicle. That was 
the most significant damage. Also, obviously, the tracks can't 
carry the systems that support the rail. I think some of the 
rail cars will be salvageable, but some will not. We just are 
not exactly sure yet.
    Coast Transit also received significant damage. They had 
about 80 bus kiosks that were along the coast that were 
completely ruined. Most of their buses were damaged, and we are 
in the same situation trying to figure out if they are 
salvageable or have to be replaced. They had damage to their 
bus facility as well as their administration facility that can 
be repaired.
    There was some damage in Miami. There was some damage in 
Mobile. And then Jefferson Parish, which is the largest county 
next to New Orleans, I believe lost most of its fleet which is 
about, I think, 20 vehicles. So we don't have a price yet.
    Mr. Sodrel. Just as a follow-up, I understand you can't 
move buildings, and I understand that you may have a limited 
ability to move trolley cars, transit cars, rail equipment, but 
do you have any idea why the rolling stock was not moved to 
higher ground when you have several days advance notice?
    You know there is a Cat 5 coming. You know your levees are 
good for Cat 3. Why weren't they moved to higher ground?
    Ms. Schruth. Well, I think--
    Mr. Sodrel. If you know.
    Ms. Schruth. We know that 200 of the vehicles were used by 
the mayor to help evacuate folks from the City of New Orleans. 
And we frankly think that New Orleans did an admirable job, to 
the point that those vehicles were in service for such a long 
time and so late trying to evacuate people, that the bus 
drivers actually had to go to the roof of the bus facility and 
get rescued themselves, and part of that was their commitment 
to get as many people out of the City as they could.
    The other vehicles, I don't know. We assume that they were 
in regular transit service, but at least two-thirds of them 
were actually being used by local officials for evacuation 
purposes.
    Mr. Sodrel. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Blumenauer.
    Mr. Blumenauer. Thank you.
    I am curious about the contracting principles you had 
discussed earlier with Mr. DeFazio that promote more timely 
performance. To what extent are other Federal agencies in 
consultation with you to talk about utilizing the same 
techniques to make sure that people who are providing other 
services and activities have contracts that are structured 
similarly, that are pointed towards delivering efficient 
outcomes?
    Mr. Capka. Sir, I am not personally aware of interagency 
discussions of contracting techniques other than what is 
provided through the FAR and the Federal Acquisition 
Regulations that we do have as guidance. We also have within 
the Emergency Relief Program, we have our own principles that 
we use when we are contracting. And so we basically followed 
the procedures that we had in place.
    Now, if there are some discussions in terms of lessons 
learned, and certainly we had many from last year that we 
employed this time around, there are many opportunities for us 
at those lessons learned forums that will certainly take place 
to share those, the good news and the challenges that were out 
there.
    I would say we are integrating and incorporating these 
lessons learned as we go along. We are not waiting until the 
very end. But personally, I have not been personally involved 
in those kinds of discussions with other Federal agencies.
    Mr. Blumenauer. Mr. Chairman, in the spirit of the notion 
of lessons learned and that we are not waiting but we are 
trying to incorporate it as we go along, I would hope that 
there may be a way, as we are discussing with our other 
subcommittees a variety of other projects and contracts, to be 
able to explore the extent to which there are contracting 
techniques that are cost-based with incentives for performance. 
Hopefully, we are getting to a point now where these are all 
routinely subjected to competitive bidding.
    I am pleased that even though you were talking about quick 
turnaround for projects that were vital to the recovery effort, 
they nonetheless were subjected to perhaps truncated but 
nonetheless competitive bid. I think that is an important 
lesson for us in terms of being able to deliver to the 
taxpayer.
    We are in the process of looking at billions of dollars in 
contracts. We have, I think, $25 or $30 billion as yet that is 
unobligated. We have authorized it, but it is not really in the 
pipeline. Maybe this is something we could help with to try and 
zero in on how the rest of these contracts are going to be 
executed, look at the good example from our friends in 
Transportation, and see if they could have broader application.
    My other area of inquiry deals with the extent to which 
facilities that are going to be designed and relocated and that 
we are making sure that, again apropos to Mr. DeFazio's point 
about maybe in some cases it makes sense to upgrade or not give 
people the best state of the art facility from 1956, we are 
paying attention to the typography, the hydrology, the geology, 
so that we are not putting things back in harm's way, that we 
are looking at new standards and new placement.
    Is that part of the thinking from either of your agencies 
at this point, or is that beyond the scope of what you feel you 
are able to do now?
    Mr. Capka. Sir, that is absolutely part of our looking 
forward and the recovery work that we are taking, particularly 
the permanent repairs. Examples of the permanent repairs are 
the bridges at Biloxi and Bay St. Louis. We did not have an 
opportunity nor the materials to go in and do a rapid repair 
like we did on the Slidell Bridge to get things just back up 
and running.
    So the next step is to fully replace those two bridges. We 
have had design conferences in Mississippi to work with the 
Mississippi DOT, bringing experts in from our office in 
Washington to review exactly that.
    What are the new design criteria that need to be 
established to ensure that we have the clear freeboard, that we 
won't have storm surge issues with bridges in the future, or 
what are the design adjustments that need to be made? So we are 
collecting that information now.
    And in fact, we had this design conference in Mississippi 
that will allow them to move forward in a design-build way to 
issue a request for proposal before the end of this month, 
using those enhanced design requirements. So we are doing that 
with respect to the repairs and recovery work that we are doing 
right now.
    In addition, we are looking further. We are looking forward 
into other areas that may be susceptible, may not have had a 
hurricane problem this year, but what about other locations 
that might be vulnerable. And so we are looking at other 
inventory bridges to see where that might occur and then to 
look to see if there might be a retrofit program that would be 
appropriate to handle those bridges before the event occurs.
    So we are trying to take these lessons learned, incorporate 
them as we go along, and as importantly look to the future to 
where other areas may be vulnerable and apply those as well.
    Mr. Blumenauer. Thank you very much. I am curious, Mr. 
Chairman, about taking it a step a little further in terms of 
the larger environmental context. We find that there has not 
been the greatest sensitivity, shall we say, to the 
preservation of wetlands, the sense of how natural design can 
buffer the impacts of nature, and I would be curious how far 
that philosophy that you articulated extends to a broader 
environmental sensitivity that has not necessarily been 
evidenced with much of our federally financed infrastructure in 
the region.
    Mr. Capka. Sir.
    Mr. Blumenauer. Thank you.
    Mr. Petri. Representative Taylor?
    Mr. Taylor. Thank you, Mr. Chairman and Mr. Secretary. I 
apologize for running late.
    A couple of things I would like to ask you. I noted with 
interest your talk of the replacement of the Biloxi and Bay St. 
Louis Bridges, and I do want to thank you for what is being 
done, as we speak, to get Highway 90 in Harrison County, that 
is the County where Biloxi is, operable again as quickly as 
possible. As you note from your visits down there, we have 
Highway 90 which parallels the coast, and then you go 10 to 15 
miles inland parallel to that is I-10.
    So if you happen to have lived in a place like Bay St. 
Louis, and you now want to visit your neighbor three miles as 
the crow flies over in Pass Christian, you have probably got 
off the top of my head a 25 to 30 mile drive instead of what 
used to be a 2 mile drive. Same thing on the other side, not 
quite as bad getting from Ocean Springs to Biloxi but 
substantial.
    Since a significant portion of our revenue is from 
tourists, gaming, casinos, and hotels, and since a significant 
portion of that does come from Louisiana and New Orleans in 
particular, what would be the mechanism, if any, and is there 
historic precedence after other disasters of trying to apply 
for some sort of ferry, either car or passenger, between Bay 
St. Louis and Pass Christian, between Biloxi and Ocean Springs 
in the approximately two years it is going to take to replace 
those bridges?
    I am told that even in this design-build that we are 
looking at 18 months. There obviously has to be some time for 
the competition to take place, and there is obviously going to 
be some wiggle room on both ends of the contract. So we are 
looking at two years of significant inconvenience to people's 
lives. Is there a precedent after previous storms for doing 
that.
    And the third thing I would ask you to look at, in addition 
to the ferry service, is one of the good news stories is that 
the railroads, apparently since their bridges were pre-stress 
and since they intend on just replacing them as they were, 
think they can pick up a significant number of the sections of 
those bridges and just put them back in place and have the rail 
line going in six months instead of two years.
    Is there precedence for ever using the railroads to 
transport vehicles across that body of water, let them 
dismount, and get back on the highway as an alternative to a 
passenger ferry or a car ferry?
    Mr. Capka. Sir, with respect to your first question about 
ferries, I am not aware of the precedent, but I am aware that 
it would be eligible to receive Federal support from the 
Emergency Relief Program to work a ferry. I do know that 
Mississippi and Alabama have been conferring over the 
possibility of Mississippi picking up some ferries from Alabama 
to work that.
    Mr. Taylor. How was that initiated? What is the process for 
that?
    Mr. Capka. The Mississippi Department of Transportation 
would determine what is in the best interest from their 
perspective, and then they would apply for emergency relief 
funding to cover the operations of a ferry.
    Mr. Taylor. And off the top of your head, what is the 
reimbursement ratio on that?
    Mr. Capka. Sir, off the top of my head, I am not quite 
sure, but it would probably be cost shared 80-20 percent, more 
than likely, because it is a long term operation of a ferry, 
but I would have to get back with you on that specifically.
    Mr. Taylor. Would you, please?
    I know years ago the railroads were touting loading 
vehicles on trains and running that train from a place like New 
York or D.C. down to Florida. So obviously, that type of 
equipment exists. Is there precedent for a shorter haul doing 
the same thing, but a shorter haul of only a couple of miles, 
again getting from one side of Bay St. Louis to the other, 
getting from one side of Biloxi Bay to the other, since those 
bridges will be up and running as far as rail lines, hopefully 
within the next six months?
    Mr. Capka. Sir, again, I am not sure about the precedent. I 
am not an expert on the rail. I do know from the discussions 
that Mississippi and Alabama have, or at least the 
deliberations in Mississippi, they are considering cycle time. 
How long it would take to get cars using a ferry or in the 
suggestion that you have made using some kind of rail 
transport, the cycle time, and then comparing it to what the 
detour cycle time might be. So I know that they are trying to 
analyze that.
    The second piece of information I think they are waiting 
for are the proposals that come in from the contractors on this 
design-build, to see what kind of time frames they are looking 
at for the replacement of the bridges, and then I think they 
will have all the information they need to make their best 
decision.
    Mr. Taylor. I am a big believer in making the most of 
whatever hand you are dealt, and obviously we have been dealt a 
pretty bad hand.
    One of the good things that this Committee has done in the 
past couple of years is work with myself and others in passing 
legislation that said if a bridge is within X number of miles 
of a navigable waterway, and it is going to be destroyed 
anyway, of making it in the national interest that that bridge 
and the rubble from that bridge be taken offshore and doing 
some beneficial use with it, being the construction of a jetty, 
a fishing reef, estuaries, or protection of coastal marshes 
from erosion.
    It is the law of the land. I can't remember if we passed 
last session or the one before that, but it is on the books.
    I would sure ask for your cooperation in the case of those 
two bridges in Mississippi. I hope this is a one time, once in 
a lifetime event. I hope I don't see the next Biloxi Bridge and 
the next Bay St. Louis Bridge end up like the last two. But 
since it is, hopefully, a once in a lifetime event, I would 
sure hope that we make good use of this and take that in the 
case of the Biloxi Bridge off of Deer Island which is a State 
owned island near shore which has been eroding significantly, 
and try to put a barrier out there to keep it from washing 
away.
    In the case of the Bay St. Louis Bridge, we have a 
precedent just in the past couple of years of taking an 
interstate bridge that was replaced. We took it offshore and 
made a fishing reef out of it. And I would hope in your 
capacity that you would help, and cooperate, and encourage that 
as well.
    I just happen to have met with the head of the Mississippi 
Department of Marine Resources at lunch today. He is very much 
interested in this. In fact, he has already applied for the 
permits through the Corps of Engineers. The Corps is on board. 
The State is on board. I hope our Nation will be on board 
towards this effort as well.
    Mr. Capka. Yes, sir, we will ensure that the consideration 
is given in the deliberations that lead up to these proposals 
that come in and are affected in terms of the bridge 
replacements.
    Mr. Taylor. I have got a town meeting in Biloxi Monday 
night, and I am sure one of the questions is going to be how 
big, talking about wide, the new bridge will be, how many 
lanes. I have already been told by the Coast Guard that is 
going to have an 80 foot clearance vertically. Can you tell me 
how many lanes I can report to these folks that you all have 
agreed upon for the new bridge?
    Mr. Capka. Sir, I would like to report back to you on that. 
My understanding is that at Biloxi it would be a six lane 
bridge, and they are landing the bridge so that the footprint 
changes either on the Ocean Springs side or the Biloxi side 
would be minimal. But I would like to get back with you with 
the specifics on how all that is shaping up and to confirm that 
it is, in fact, six lanes.
    Mr. Taylor. Okay, and if you could provide me any 
additional information. A fairly common topic in my town 
meetings is the need for ferry service. It comes up, 
particularly in those areas fairly often, and if I could report 
to them whatever progress you are making along that, I am sure 
they would appreciate it, and I know I would appreciate it.
    Mr. Capka. Yes, sir, and I will be sure to pass that on to 
the Mississippi Department of Transportation as well.
    Mr. Taylor. I guess the very last thing I would want to 
mention, and again we are very grateful for the help we are 
getting from you and from all the other National agencies.
    One opportunity that has recently presented itself is, as I 
am sure you know, prior to the storm, the casinos by law had to 
float. It is a holdover from the old days when they went from 
riverboats that had to be underway, then to riverboats that 
were docked, to barges that were docked, but the key word was 
that they had to be over water. That law has been changed. 
Governor Barbour signed that law change, I think, yesterday 
that allows them to come 800 feet inland.
    Before, Highway 90 did have some fairly significant 
bottlenecks near the casinos for obvious reasons. You couldn't 
go south because the casino was there; you couldn't go north 
because of the existing dwellings that were there.
    A lot of that landscape has changed. I do think the 
movement of the casinos to the north side of the road does 
present some opportunities on the south side of the road to 
move traffic a bit more rapidly for the people trying to make 
haste going from east to west or the other way around. I would 
hope your engineers are keeping that in mind for these changes 
so that when we rebuild Highway 90, we do it right the first 
time.
    Mr. Capka. Yes, sir, the Highway 90 is being restored in 
phases, and the first two phases are to do the essential 
repairs just to get all four lanes open and operating. And so 
they are going to go back in immediately to try to get that 
done as quickly as they can to support the recovery effort.
    The last phase of Highway 90 would be the complete 
restoration to the appropriate standard. It would be at that 
time that the Mississippi Department of Transportation would 
then have to figure out whether they need to do just an 
alignment, whether they would need to make some other 
alterations in how Highway 90 was to run between Bay St. Louis 
and Biloxi. At that point, I think there will be opportunities 
to discuss exactly how that would occur.
    Mr. Taylor. Okay. Thank you, Mr. Chairman. Thank you for 
being here, Mr. Secretary.
    Mr. Petri. Mr. DeFazio, do you have something?
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Ms. Schruth, we had some discussion on the highway side 
about emergency apportionment that we have as part of the 
formula even though it is oversubscribed. I understand there 
may be some, and I was surprised here.
    I hadn't heard that the Transit folks had done such a great 
job in evacuating, and that is heartening to hear. I assume 
that was done under local authority, and I guess there is a 
question of whether or not that is a reimbursable activity 
since they were operating outside their normal charter, is that 
correct?
    Ms. Schruth. We issued policy guidance that the emergency 
use of transit vehicles was in the public interest, and we were 
supportive of that. It would probably be considered incidental 
use which would be the typical determination we would make for 
the use of transit vehicles, so.
    Mr. DeFazio. So it would be federally eligible?
    Ms. Schruth. Yes.
    Mr. DeFazio. Okay. Do you feel that we need to look on the 
transit side at setting up some sort of-I don't know where the 
funds will come from. Of course, you are not providing 
operating dollars, right?
    Ms. Schruth. We do for areas under 200,000.
    Mr. DeFazio. Okay, but for New Orleans, they wouldn't be 
eligible?
    Ms. Schruth. Right.
    Mr. DeFazio. They could apply to FEMA, I guess, for the 
costs of operating those buses to evacuate people, is that 
correct?
    Ms. Schruth. Yes, at DOT or ESF-#1, Emergency Support 
Function 1, which is the Department of Transportation. We 
receive the mission assignment from FEMA. So we are actually 
the contracting agency with NORTA who will provide service in 
both Baton Rouge and in New Orleans. It is FEMA Funds, and it 
is FEMA. It is a Stafford Act Program.
    Mr. DeFazio. Well, that is what you are talking about, the 
restoration. I am talking about the actual evacuation costs and 
those sorts of things in the future. I am trying to get at the 
point of whether there is any impediment here. We don't ever 
want a local jurisdiction to hesitate to use whatever resources 
they have to get out of harm's way because they are worried 
what it costs.
    Ms. Schruth. We can make that clearer. I think we have 
sponsored drills and have paid for about 90 of them around the 
Country, specifically to get transit at the table so that they 
are part of the evacuation process.
    Mr. DeFazio. Okay, that is good. Okay. Thank you, Mr. 
Chairman.
    Mr. Petri. Thank you. Just a few final questions.
    We are having next week a panel of State and Local 
transportation officials from the affected areas. You both had 
experience in dealing with a variety. This is not the only 
disaster, unfortunately, that we have encountered, and you 
coordinated transit things in response to 9/11 at the Federal 
level in Manhattan for some time.
    Could you characterize at all the level of cooperation that 
you are getting between Federal and State officials in dealing 
with the transportation issues to maximize return of service?
    Mr. Capka. Sir, I will take the first stab at your question 
and then pass it on to my transit colleague here. I think the 
cooperation communications have been excellent between our 
Federal Highway Division Offices that exist in each State and 
their counterpart State agencies.
    Are there disagreements? There are always disagreements as 
we go forward, but the communications are there so that we are 
constantly looking at the challenge ahead and focused on 
meeting the requirements. I would say it is reflective, I 
think, of the fact that we do have a division, a Federal 
Highway Division Office in each State.
    So when the emergencies occur, the players know one 
another, and it is not a pickup team going after the task at 
hand. Unprecedented challenge with respect to the damage that 
we have seen here, and the widespread damage, and the type of 
damage. The flooding in New Orleans really did close access to 
a lot of the highway systems just because it was underwater, 
and we certainly had to wait for that to abate. In Mississippi, 
just the widespread devastation. And so cooperating with the 
State agencies was absolutely essential, and I thought was done 
very well.
    Ms. Schruth. Yes, Mr. Chairman. I think one of the 
positives that comes out of emergency situations is the focus 
on getting the job done, and I would say that was true in New 
York. I was lucky enough to be in Atlanta during the Olympics 
when we brought 1,400 transit buses in.
    And I would say the same here, that there is tremendous 
cooperation. FTA works extensively with FEMA in providing 
funding for the transit assistance, and I think we have found 
FEMA to be responsive. We don't always agree. They are the 
experts on the Stafford Act. So they have had to educate us a 
little bit.
    But I think that we have been on the ground. We don't have 
division offices as Federal Highway does, but we were able to 
deploy staff rapidly and have them in place, and we do have 
strong partnerships with the State DOTs as well as the major 
transit systems. So I think it has worked very well. I think it 
is staff-intensive but has, I think, paid off to the benefit of 
the communities affected.
    Mr. Petri. I don't know if you can respond to this with 
much precision, but if you can just give us a rough idea, too. 
When an emergency like this happens, there is clearly an 
initial phase where nothing is happening, that the roads can't 
be used and so on. Then there is a period when emergency 
service has been restored, but you are not back to normal. And 
then, you are back to normal.
    Where are we in this? I assume that we are somewhere in the 
emergency service has been restored. Basically, is the area 
open to travel, even if inconvenient, now throughout the 
region.
    Mr. Capka. Sir, I would say we have restored the essential 
traffic. If you were to look at the traffic even now backing 
up, waiting to cross the I-10 Bridge at Slidell, both going in 
and out of the New Orleans area, there is a lot of congestion 
as recovery traffic is going in and out.
    So we are nowhere near being back to normal, but we have 
opened up Interstate 10 so that traffic can traverse. We are in 
a position by the end of the month where Highway 90, with the 
exception of one bridge at Henderson Curve, will be open for 
traffic, one lane each direction to support the return of 
residents and the recovery efforts that would need to take 
place.
    The major pieces of infrastructure are functioning now. It 
will take a while before they are back to normal just because 
of the length of time it is going to take to restore bridges, 
something as significant as the Slidell Bridge, the Twin Span.
    There also, the final work won't be done on roads until 
recovery is practically complete. Because of the construction 
loading on these roads, there is going to be collateral damage. 
So one of the reasons why we determined that phasing the 
recovery of Highway 90 was a reflection of the fact that we 
knew that the heavy traffic was going to cause some damage.
    So we decided to wait for the ultimate permanent repair at 
the end of the recovery effort. As we are phasing, the short 
answer to your question is we are still in the minimum 
operation. We are recovering, but I think we have restored the 
essential service.
    Ms. Schruth. I think from the transit perspective, Mr. 
Chairman, we have some areas of the Southeast which would still 
be in a disaster state, and part of that is because evacuees 
who had mobility in New Orleans have been relocated to areas 
that have no public transportation, and a lot of these folks 
came without any kind of their own transportation. That is a 
problem area that we are still working on.
    Obviously, the most significant example of that is Baton 
Rouge, and FEMA has supported a six month increased transit 
service in the Baton Rouge area. They are doubling the number 
of vehicles in their fleet. They have about quadruple the 
demand on their system that was there the day before Hurricane 
Katrina struck.
    I think along the Gulf Coast, the system will come back 
more rapidly than in New Orleans. The service that is being 
provided right now with FEMA assistance is different service 
than what existed there before, but it is actually serving the 
needs of evacuees and residents. A lot of the roads were 
damaged.
    So their previous routes aren't really passable at the 
moment, but that will be a shorter term solution. And then, 
obviously, New Orleans where you have major systems destroyed, 
major assets having to be replaced, that will be a much longer 
term resolution and will somewhat be determined by how New 
Orleans decides to rebuild itself.
    Mr. Petri. Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman. I apologize that I 
was late and didn't get to hear the majority of the testimony. 
I was in a markup in another committee concerning our veterans.
    But as I go home and, in fact, I was in an earlier meeting 
today concerning the Corps' efforts with Katrina and things. I 
hear about gasoline prices. I hear about health care. But right 
up there at the top is a real concern in my District, and I 
think a real concern on the part of Congress and the American 
people that the funds that we have allocated in going down for 
relief are going as they need to be gotten to, spent in the 
correct way.
    Can you talk to us a little bit and reassure us some of the 
mechanisms that maybe we can have even greater transparency in 
those dealings than we normally have; some of the things that 
we are going to be doing to reassure us as a Committee, 
reassure my constituents, reassure the American people that 
those funds are going to be spent in the correct way; and maybe 
some of the things that you are going to institute to make sure 
that we have a mechanism? We are talking about a lot of money.
    Like I say, I know that the Committee, and I know that my 
constituents are very concerned that we do have good oversight 
and that you have got a plan in place to make sure that that 
money goes where it is supposed to go.
    Mr. Capka. Yes, sir, I would like to take the first 
opportunity to respond. First of all, from the Department 
level, the Secretary has made it clear to all of us that the 
management of the fiscal resources that we are given is top 
priority, and he has established a team headed up by our 
Department's Chief Financial Officer to oversee the expenditure 
of resources across the Department.
    So the emphasis has been placed by Secretary Mineta. 
Specifically, within Federal Highways, we are also very 
cognizant of the responsibilities that we have to be good 
stewards of the Federal dollars over which we have control and 
have oversight.
    The first thing we do is to identify, for an example with 
our emergency relief funding that we will be managing, and is 
to ensure that the money is being spent on eligible work. That 
is the first criteria because there is a lot of good things out 
there that could use money, but we need to make sure it fits 
the requirement for being eligible.
    And then secondly, we have controls in place where the 
actual disbursements are not made on the emergency relief until 
we have legitimate bills that need to be paid. So the money 
isn't paid up front. The money is disbursed as the expenses are 
incurred.
    Secondly, in the contracting mechanisms that we are using, 
we very much focus on the competitive bid process to ensure 
that the work to be done is given an opportunity to see the 
best and the most efficient way of expending dollars. And so we 
focused on ensuring that the competitive bid--once we were out 
of the absolute, out of the starting block kind of requirements 
of getting debris out of the way, we settled down to the 
competitive bid process. That is another technique to ensure 
that the process itself yields the most efficient use of the 
Federal dollars that we do have, sir.
    Ms. Schruth. We are currently administering $48.5 million 
of FEMA funds through contracts with local transit agencies and 
the Mississippi State DOT. We have an existing oversight 
program which we are tailoring to these situations. We have 
staff currently detailed to the regions. So we have an onsite 
presence, both for Mississippi and in Louisiana are certified 
contract administrators. We have major engineering firms that 
we have under contract also present in the region.
    So I think we are providing a higher level of oversight 
than we typically would. And the IG is married to us, 
apparently. They have spent a week there already just wanting 
to see what we think we are going to be doing. So I think, as 
Administrator Capka said, this is a high priority for us, that 
we know that we are spending the taxpayers' dollars, and we 
will do everything we can to make sure it is spent well.
    Mr. Boozman. Again, thank you very much. I really do 
appreciate your hard work, and I know that you are doing your 
very best. This is a difficult situation. So thank you very 
much.
    Mr. Capka. Thank you, sir.
    Mr. Petri. One last question, you may have covered this but 
just again. Do you have an estimate, Mr. Capka, as to the total 
cost of the hurricane damage in the transportation area in the 
Gulf Region and what the Federal cost or percentage of that 
cost will be?
    Mr. Capka. Sir, I can't give you a final cost this 
afternoon just because it is a moving target, and we are doing 
some evaluations. But to give you an idea of what the States 
have requested, and of course we have to go through the process 
that I just described just a short minute ago about determining 
eligibility: Louisiana has requested $1.5 billion in emergency 
relief support.
    Mississippi has requested on the order of $700 million in 
terms of Federal, and that is all 100 percent Federal. Alabama 
has been around less than $25 million, and I would say Florida 
less than $100 million as a result of what occurred over in 
their area. That is what they have requested. We are in the 
process of going through those in detail and ensuring, first of 
all, that they meet the criteria for the Emergency Relief 
Program, and then secondly, to ensure that our estimates and 
their estimates are on track.
    So we are in the process of doing that internally, and we 
should have something that we will be happy to work with you 
here in the very short future.
    Mr. Petri. Yes?
    Ms. Schruth. The infrastructure replacement for our transit 
will be paid for by FEMA under the Stafford Act. And so we are 
working with the transit agencies to develop applications for 
public assistance, and we do have our contractors down, making 
estimates just so we can be aware of what we think that will be 
and to help them put these packages together.
    But I know New Orleans has not submitted an application 
yet. I think that Coast Transit has had preliminary 
conversations with FEMA, and we have been there, but I don't 
really know the final figure.
    Mr. Petri. Just a follow-up, could you give us a feeling? 
You mentioned the numbers they had requested and said, 
obviously, you have to trust, or verify, or whatever the phrase 
is, to check it out and make sure that it is, in fact, 
necessary and related to what happened.
    Can you give us a feeling? This isn't the first disaster. 
These sorts of requests must have been dealt with on many 
occasions in the past. Do you have a range? Are they almost 
always fully granted, or is it cut back by a third or half, or 
is it just all over the field?
    Mr. Capka. Sir, I can maybe walk you through the process 
that we use. I can't give you a percentage of what I think our 
estimate of the emergency relief requirement will be. But as an 
example, a big question is: Do we use emergency relief money to 
replace and rebuild the new Slidell I-10 Bridge, or is that 
going to be a mix of emergency relief, and state, and other 
dollars to do that? We need to get the engineering reports in 
on the condition of the bridge so we know what the repair 
requirement is, and we are working this with Louisiana.
    While they have assumed that the bridge needs to be 
replaced, we need to again, as you pointed out, verify that 
that is an appropriate thing for the Emergency Relief Program. 
It is certainly appropriate from what the bridge requirements 
are but specifically on the Emergency Relief Program. And I 
would say there are some other estimates, too, that are out 
there of damage that are being anticipated as opposed to damage 
that exists.
    In terms of inundated roads that have been under water for 
quite some time, the questions are: Is the base course, the 
foundation for the road damaged to the point where it needs to 
be replaced, or will the roads dry out and be fine?
    So there are those kinds of issues that make it extremely 
difficult for us at this point to converge on a number today. 
We are working very hard to do this, but those are the kinds of 
issues that are out there, and some issues we have absolutely 
no difference with the States. Working shoulder to shoulder 
with them, we are able to work through those. But there are 
some other items that we do need further analysis on.
    Mr. Petri. Thank you both very much. I appreciate your 
willingness to be here and your testimony today. The hearing is 
adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5917.001
    
    [GRAPHIC] [TIFF OMITTED] T5917.002
    
    [GRAPHIC] [TIFF OMITTED] T5917.003
    
    [GRAPHIC] [TIFF OMITTED] T5917.004
    
    [GRAPHIC] [TIFF OMITTED] T5917.005
    
    [GRAPHIC] [TIFF OMITTED] T5917.006
    
    [GRAPHIC] [TIFF OMITTED] T5917.007
    
    [GRAPHIC] [TIFF OMITTED] T5917.008
    
    [GRAPHIC] [TIFF OMITTED] T5917.009
    
    [GRAPHIC] [TIFF OMITTED] T5917.010
    
                                    

</pre></body></html>
